1a
APPENDIX A
UNITED STATES COURT OF APPEALS FOR
THE EIGHTH CIRCUIT
_________________
No. 17-2721
_________________
United States of America
Plaintiff-Appellee
v.
Allen E. Peithman, Jr.
Defendant-Appellant
Appeal from U.S. District Court for the District of
Nebraska - Lincoln
(4:15-cr-03091-RGK-1)
JUDGMENT
Before BENTON, BEAM, and ERICKSON, Circuit
Judges.
This appeal from the United States District Court
was submitted on the record of the district court,
briefs of the parties and was argued by counsel.
After consideration, it is hereby ordered and adjudged that the judgment of the district court in this
cause is affirmed in part, reversed in part, and remanded to the district court for proceedings consistent with the opinion of this court.

2a
February 28, 2019
Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

3a
APPENDIX B
UNITED STATES COURT OF APPEALS FOR
THE EIGHTH CIRCUIT
_________________
No. 17-2722
_________________
United States of America
Plaintiff-Appellee
v.
Allen E. Peithman, Jr.
Defendant-Appellant
Appeal from U.S. District Court for the District of
Nebraska - Lincoln
(4:15-cr-03091-RGK-1)
JUDGMENT
Before BENTON, BEAM, and ERICKSON, Circuit
Judges.
This appeal from the United States District Court
was submitted on the record of the district court,
briefs of the parties and was argued by counsel.
After consideration, it is hereby ordered and adjudged that the judgment of the district court in this
cause is affirmed in part, reversed in part, and remanded to the district court for proceedings consistent with the opinion of this court.

4a
February 28, 2019
Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

5a
APPENDIX C
UNITED STATES COURT OF APPEALS FOR
THE EIGHTH CIRCUIT
_________________
No. 17-2723
_________________
United States of America
Plaintiff-Appellee
v.
AEP Properties, L.L.C.
Defendant-Appellant
Appeal from U.S. District Court for the District of
Nebraska - Lincoln
(4:15-cr-03091-RGK-5)
JUDGMENT
Before BENTON, BEAM, and ERICKSON, Circuit
Judges.
This appeal from the United States District Court
was submitted on the record of the district court,
briefs of the parties and was argued by counsel.
After consideration, it is hereby ordered and adjudged that the judgment of the district court in this
cause is affirmed in part, reversed in part, and remanded to the district court for proceedings consistent with the opinion of this court.

6a
February 28, 2019
Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

7a
APPENDIX D
UNITED STATES COURT OF APPEALS FOR
THE EIGHTH CIRCUIT
_________________
No. 17-2768
_________________
United States of America
Plaintiff-Appellee
v.
Sharon A. Elder
Defendant-Appellant
Appeal from U.S. District Court for the District of
Nebraska - Lincoln
(4:15-cr-03010-RGK-2)
JUDGMENT
Before BENTON, BEAM, and ERICKSON, Circuit
Judges.
This appeal from the United States District Court
was submitted on the record of the district court,
briefs of the parties and was argued by counsel.
After consideration, it is hereby ordered and adjudged that the judgment of the district court in this
cause is affirmed in part, reversed in part, and remanded to the district court for proceedings consistent with the opinion of this court.

8a
February 28, 2019
Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

9a
APPENDIX E
UNITED STATES COURT OF APPEALS FOR
THE EIGHTH CIRCUIT
_________________
No. 17-2721
_________________
United States of America,
Plaintiff-Appellee
v.
Allen E. Peithman, Jr.
Defendant-Appellant
_________________
No. 17-2722
_________________
United States of America,
Plaintiff-Appellee
v.
Allen E. Peithman, Jr.
Defendant-Appellant
_________________
No. 17-2723
_________________
United States of America,
Plaintiff-Appellee
v.
AEP Properties, L.L.C.
Defendant-Appellant

10a
_________________
No. 17-2768
_________________
United States of America,
Plaintiff-Appellee
v.
Sharon A. Elder
Defendant-Appellant
_________________
Appeals from United States District Court
for the District of Nebraska - Lincoln
_________________
Submitted: November 14, 2018
Filed: February 27, 2019
_________________
Before BENTON, BEAM, and ERICKSON, Circuit
Judges.
_________________
ERICKSON, Circuit Judge.
In 2013–2014, law enforcement officers in Lincoln,
Nebraska, began focused investigations on “smoke
shops” selling “potpourri,” a product containing synthetic marijuana that when consumed sometimes resulted in significant adverse health effects. “Dirt
Cheap” owned by Allen E. Peithman, Jr. and “Island
Smokes” owned by Sharon A. Elder were two of the
shops investigated. Elder is Peithman’s mother.

11a
Peithman, AEP Properties, and Elder1 were
charged in a 14-count indictment. The indictment
contained conspiracy charges pertaining to the distribution of drug paraphernalia, the distribution of misbranded drugs, structuring more than $100,000 in a
12-month period, mail fraud, the commission of
money laundering as well as other charges relating to
the maintenance of drug-involved premises and investment of illegal drug proceeds. The indictment also
included forfeiture allegations. Following a 13-day
trial, the jury acquitted Peithman, AEP Properties,
and Elder on some counts and convicted them on
other counts. The district court sentenced Peithman
to a total term of 115 months’ imprisonment for the
convictions at issue in this appeal2 and a consecutive
14-month term of imprisonment for violating his conditions of supervised release. Elder was sentenced to
a total term of 63 months’ imprisonment.3 AEP Properties was fined $450,000 and ordered to pay a special
One other individual and one other corporation were also
charged and convicted of one or more offenses in this case, but
they have not appealed.

1

The entire sentence consisted of 115 months’ imprisonment on
Counts IX (investment of illicit drug profits), XI (conspiracy to
commit mail fraud), and XII (conspiracy to structure more than
$100,000 in a 12-month period); and concurrent terms of 36
months on Counts VIII (conspiracy to distribute and possess
with intent to distribute drug paraphernalia) and X (conspiracy
to distribute misbranded drugs with intent to defraud or mislead).

2

The entire sentence consisted of 63 months’ imprisonment on
Counts IX (investment of illicit drug profits), XI (conspiracy to
commit mail fraud), and XII (conspiracy to structure more than
$100,000 in a 12-month period); and concurrent terms of 36

3

12a
assessment in the amount of $400. A joint and several
money judgment in the total amount of $1,142,942.32
was ordered to be paid by Peithman, AEP Properties,
Elder, and Cornerstone Plaza (a company Elder
owned). The court imposed a fine in the amount of
$500,000 against both Peithman and Elder and ordered each to pay $5,186.56 in restitution.
Peithman raises two clusters of issues on appeal:
(1) sufficiency of the evidence, and (2) various assertions of substantive and procedural errors. Peithman
contends the evidence was insufficient to sustain a
conspiracy or that illegal profits were invested. In his
second barrage of claims, he argues the district court
erred when it denied his motion for a new trial; when
it ordered the money judgment to be joint and several
and found equal culpability among the parties; when
it failed to remove a juror who was ill during the trial;
when it calculated the Sentencing Guidelines; and
when it failed to grant a more substantial downward
variance.
Elder also raises numerous challenges. She asserts that the evidence was insufficient to sustain convictions for distributing misbranded drugs and structuring. She joins Peithman’s claim that the money
judgment was imposed in error, and argues the district court erred by considering acquitted conduct at
sentencing, by calculating the Sentencing Guidelines

months on Counts VIII (conspiracy to distribute and possess
with intent to distribute drug paraphernalia) and X (conspiracy
to distribute misbranded drugs with intent to defraud or mislead).

13a
range incorrectly, by refusing to allow a public authority/entrapment by estoppel defense, and by imposing a substantively unreasonable sentence. We reverse that portion of the money judgment imposed
jointly and severally pursuant to 21 U.S.C. § 853 in
the amount of $117,653.57 and remand for further
proceedings consistent with this opinion, but affirm
the convictions and sentences in all other respects.
I.

Background

In late 2013, law enforcement officers, acting in
an undercover capacity, began buying products suspected of containing synthetic marijuana from smoke
shops. Dirt Cheap and Island Smokes were two of the
targeted shops where undercover buys occurred in
2014 and 2015. Allen Peithman first began operating
Dirt Cheap in 2008. Dirt Cheap sold cigarettes, glass
pipes, water pipes, t-shirts, e-cigarette products, “typical head shop stuff.” When the store first opened,
Peithman sold “K2”, which is now referred to as “potpourri.” Peithman explained to law enforcement that
“K2” did not contain any banned chemicals, did not
cause consumers any problems, and was in high demand because it did not show up on drug tests. According to Peithman, “every shop in town” began selling
“K2” because the product had a very high profit.
Peithman’s operation of Dirt Cheap was interrupted when he was incarcerated on a federal firearm
charge between March 2013 and June 2014. When
Peithman was operating Dirt Cheap, he primarily relied on his wholesale suppliers to review the list of prohibited controlled substances and to insure that the
“potpourri” complied with state and federal controlled

14a
substances laws. He informed law enforcement that the
vendors constantly changed the products they sold to
keep ahead of the evolving law. The “potpourri” sold at
Dirt Cheap and Island Smokes was purchased primarily on the Internet with money orders. According to
Peithman, the profit margins plummeted for “potpourri” sold during the last few years of his business.
Nonetheless, on a “good day” Dirt Cheap made around
five thousand dollars. On a “bad day” it would be a couple thousand dollars.
During Peithman’s incarceration, Dirt Cheap was
operated by Elder, although Peithman retained ownership of the name Dirt Cheap. In September 2014,
Elder opened her own store, Island Smokes, because
Peithman did not want to sell “potpourri” at Dirt
Cheap any longer. Peithman purchased the property
for the new store from his uncle and leased it to his
mother. After Island Smokes opened for business,
Dirt Cheap ceased selling “potpourri” but continued
to sell what law enforcement consider drug paraphernalia as well as other items typically sold in smoke
shops. Island Smokes sold drug paraphernalia, “potpourri,” and other items typically sold in smokes
shops.
Between February 2014 and August 2015, law enforcement officers conducted at least nine undercover
buys. Several of the packets purchased were sent to a
lab and tested positive under the United States Drug
Enforcement Administration (“DEA”) drug scheduling
as a Schedule I controlled substance. In addition, in
April 2014, law enforcement obtained a search warrant
for five boxes scheduled to be delivered to Dirt Cheap
based on information from a Federal Express driver

15a
that he had become ill due to an odor coming from packages. The boxes contained approximately 2,500 various
fruit-flavored packets of “K2/potpourri” in three-gram
and ten-gram amounts. At that time, the packets tested
negative for DEA Schedule I controlled substances.
By September of 2014, the Lincoln police department was receiving an average of 20 to 30 calls per week
about people hanging around Island Smokes and trespassing at an adjacent apartment complex. Over a fourday period in April 2015, law enforcement officers responded to at least seven medical emergencies involving “potpourri” bought at Island Smokes and smoked by
the purchaser. Law enforcement encountered some of
the overdose victims near Island Smokes and others
they visited at the hospital.
On April 23, 2015, law enforcement officers executed a search warrant at Island Smokes. One of the
investigators noticed 100 pipes in a storage area behind
the front counter, which in his experience were commonly used to smoke methamphetamine. When questioned, Elder called them “oil burners.” When asked if
Elder had aromatic oil to burn in the pipes, she located
two small vials from behind the checkout counter. Elder
reported to law enforcement that she generally kept 10
vials of oil per 100 pipes.
Officers seized a “K2” packet and pipe discovered
while searching the back garage area, which upset Elder because she believed all the “K2/potpourri” had
been removed from the store. Elder told investigators
during the search of her store that even though the “potpourri” packets were labeled “do not burn,” she knew a

16a
majority of her customers smoked “potpourri,” purportedly to relax. She also informed the investigators that
her customers had requested a milder blend because
her current and recent stock was too strong and they
did not like the effects.
In total, officers seized from Island Smokes more
than 1,000 assorted glass pipes, bongs, gas mask
pipes, dugouts, one-hitter pipes in different colors,
sizes, and styles. Cigar wrappers and rolling papers
were also seized. A total of 560 packets of “potpourri”
were seized. Twelve sample “potpourri” packets from
the inventory were sent to a lab for testing. Four of
the 12 sample “potpourri” packets contained DEA
Schedule I controlled substances. In addition, Food
and Drug Administration (“FDA”) Special Agent
Bradley Cooper opined at trial that the seized “potpourri” packets were misbranded because they did not
comply with FDA labeling requirements. He testified
the packets were missing instructions for proper use,
adequate warnings of potential adverse side effects, a
list of active ingredients, a description of the contents,
and the manufacturer’s name.
On August 25, 2015, law enforcement officers executed a search warrant at Dirt Cheap. Glass pipes,
bongs, hookahs, water pipes, scales, grinders, dugouts, one-hitters, plastic baggies, rolling papers,
screens, other types of drug paraphernalia, and business records were seized. Law enforcement officers
also obtained bank records for Peithman and Elder
and their business accounts. An operations officer for
West Gate Bank testified during the trial that multiple cash deposits in Peithman’s Dirt Cheap business
account would be made on a single day. For example,

17a
on December 19, 2013, a $5,000 cash deposit was
made at 10:12 a.m. using teller #54; a second $4,000
cash deposit was made to the same account at 2:20
p.m. at the same branch using teller #56; and a third
cash deposit of $1,292 was made 18 minutes later to
the same account at the same branch using teller #58.
Between October 1, 2013, and May 11, 2015, a total of $1,100,957.65 in cash was deposited into bank
accounts belonging to Peithman, Elder, Cornerstone
Plaza, and AEP Properties. An expert in the field of
financial investigations testified at trial about transactions indicative of structuring. He opined that the
“even dollar” cash deposits made to the various accounts belonging to businesses were indicative of an
intent to structure because they are inconsistent with
normal business activity. He further opined that two
cash deposits made on consecutive days in an amount
slightly under the $10,000 threshold daily limit might
also be indicative of an intent to structure. Similarly,
multiple deposits on the same day, and sometimes
less than 20 minutes apart as occurred here, that totaled more than $10,000 for the day, but individually
were under the $10,000 limit was indicative of structuring. The expert also testified that structuring
could occur through multiple cash deposits on the
same day at different banks in amounts less than
$10,000 to avoid depositing more than $10,000 into
any one account on a single day. According to the expert, the bank records presented at trial contained deposits indicative of structuring.
After her arrest for charges related to this case,
Elder stressed to law enforcement that she, not her
son, was solely responsible for the sale of “potpourri”

18a
during and after Peithman’s incarceration. Both Elder and Peithman asserted at trial that Elder “went
to great lengths” and used “due diligence” to make
sure the products she was selling were legal. They
cited, as examples, Elder’s efforts to review the chemical sheets associated with the products, her discussions with the suppliers, her attendance at conferences, her consultation with a lawyer, and her decision to keep in contact with law enforcement and follow their advice, such as when she was asked to stop
selling a particular product because of the serious side
effects people were experiencing.
After what the district court described as “a long,
and very well fought jury trial,” the jury convicted
Peithman, Elder, and AEP Properties on some counts
and acquitted on others. The jury found Peithman
and Elder guilty of conspiracy to distribute drug paraphernalia, conspiracy to commit mail fraud, investment of illicit drug profits, conspiracy to distribute
misbranded drugs, and conspiracy to structure financial transactions. Peithman was sentenced to a period
of incarceration of 115 months and Elder to a term of
63 months. The lengthier sentence for Peithman was
due primarily to his criminal history. Both sentences
were at the high end of the applicable advisory Sentencing Guidelines range as calculated by the court.
The government sought forfeiture of specific property owned by Peithman, Elder, and their companies.
Both parties agreed to submit the issue of which property should be forfeited to the jury. The jury agreed
that the packets of “potpourri” and related drug paraphernalia together with one bank account were sub-

19a
ject to forfeiture. The jury was unable to reach a unanimous agreement on other specific items and found
other items should not be forfeited. The items the jury
did not forfeit or could not agree should be forfeited
were the most valuable items of specific property.
The government also sought a money judgment as
part of the forfeiture allegations pertaining to the
drug paraphernalia conviction, the mail fraud conviction, and the structuring conviction. That issue was
decided by the court. The government requested a
money judgment in the amount of $2,248,728.56. After conducting a hearing on the issue, the court found,
by a preponderance of the evidence, the appropriate
money judgment was in the amount of $1,142,942.32,
which “represent[ed] the wholesale costs of acquiring
the drug paraphernalia and potpourri, the sale of
which generated the structuring.” The court specifically rejected the “proceeds theory” and was cautious
to take steps to ensure double-counting did not occur.
This timely appeal followed.
Peithman has raised eight issues on appeal, challenging decisions made post-trial. Elder has raised
ten issues, challenging decisions made during the
trial and post-trial. We have carefully considered each
of their arguments and in this opinion group related
claims.

20a
II.

Discussion
1.

Peithman’s 18 U.S.C. § 3147 Conviction

18 U.S.C. § 3147 increases the punishment for an
offense committed while on pretrial release. It is indisputable that the jury should not have been asked
to determine Count XIV–that is, whether Peithman
committed an offense under 18 U.S.C. § 3147. Years
ago, this Court held that § 3147 provides for an enhancement of a sentence, not a separate offense to be
found by a jury. United States v. Feldhacker, 849 F.2d
293, 299 (8th Cir. 1988). The district court acknowledged the error and took responsibility for it. The
court vacated the conviction (Count XIV) before sentencing.
Peithman asked for a remedy beyond vacating the
conviction. He moved for a new trial, arguing the entire trial was tainted by permitting evidence of his
prior conviction and conditions of supervised release
because Count XIV was submitted to the jury. The
court denied the new trial motion on the ground that
the interviews Peithman and Elder provided to law
enforcement would have been admitted into evidence
regardless of Count XIV and no “conceivable prejudice” could exist since there were 18 references during
Peithman’s interview and five references during Elder’s interview to the fact that Peithman had been in
prison, was on supervised release, and was staying
out to the smoke shop business to avoid trouble with
his probation officer.
During the new trial motion and now on appeal,
the parties characterize Peithman’s defense theory as

21a
one in which Peithman was not involved in unlawful
activity during the times alleged in the indictment because he was in jail during a majority of that time and
that following his release he consciously avoided the
business due to his supervised release conditions.
Peithman argues on appeal that he is entitled to a
new trial because this defense was thrust upon him
when the government wrongfully charged him under
18 U.S.C. § 3147 and then compounded the error by
introducing evidence that: (1) he had an unidentified
prior federal conviction; (2) he was placed in the “high
risk” supervised release case load; and (3) he was on
supervision for three years and had to comply with
identified terms and conditions during the time of supervision.
We have reviewed the trial transcript. The defense arguments for acquittal advanced during the
trial are remarkably different than what has been
portrayed on appeal. The prosecutor made the following assertions during her opening statement:
Peithman initially ran Dirt Cheap and then was “gone
for a while;” while he was gone, Peithman had given
a power of attorney to Elder to run the store; and in
the summer of 2014, Peithman went “back to work” at
Dirt Cheap while on “what’s called supervised release
from a prior matter.”
Peithman’s attorney also mentioned during his
opening statement Peithman’s absence from the business. Counsel explained to the jury:
And when this indictment happened
in 2013, all the way up until June of
2014, he wasn’t even around. Now, he

22a
had started Dirt Cheap back in 2008 and
ran it for a while until he left the state.
So for the first part of this indictment,
which on Count I starts from October
1st, 2013, and goes through April 23rd of
2015, Allen Peithman, AJ, as many of
his friends call him, wasn’t even around
for most of that. He had nothing to do
with the business. Dirt Cheap was still—
was still going, operated by his mother,
but he had nothing to do with the day-today operations.
It was at this point that Peithman’s theory of defense
diverged from the prosecutor’s theory. Peithman contended he was not guilty because he changed occupations. According to defense counsel, Peithman shifted
from being a business owner to being a landlord.
Counsel clearly laid out Peithman’s intentions to the
jury:
AJ was going to get away from the
head shop, and he was going to start investing in real estate. He was going to be
a landlord.
The shop at Dirt Cheap, he was a landlord. He collected rent from Dirt Cheap.
He collected rent from Island Smokes.
Every now—His mom ran the business,
Shari. Every now and then, she’d need a
favor from him, he is her son, to open the
door sometimes when she couldn’t make
it down to Dirt Cheap. Would he take the

23a
cash that she’d made that day and drop
it in the bank? Yes.
But AJ was not in some type of agreement or conspiracy with his mother. He
was a landlord and he was a son, and
that’s the evidence that you are going to
hear.
During closing argument, Peithman’s counsel reiterated comments he made during his opening statement. Peithman argued to the jury that he was being
singled out because of his family’s wealth. Counsel reiterated several times during his closing argument
that Peithman was not in the smoke shop business;
rather, he was a landlord. Counsel argued, in particular:
The whole thing was a game of gotcha.
Follow the money. It’s a game of gotcha
because the Government wants their
money. They want the Elder money.
They could have shut this down at any
time. They could have walked in there—
They had a positive lab for synthetic marijuana, I believe Officer Reynolds said,
in summer of 2014, and they sat on it,
because this case was bigger than this
public health crisis that they now claim
existed.
***

24a
AJ gets out of prison. His mom has taken
over the business. She buys him a property, like a mom might do who has
money. She had, essentially, bought the
business for him, so it’s not odd that she
bought the building and he was going to
be the landlord. That doesn’t make him
part of the business.
Look, AJ had money. AJ was wealthy.
He had that cash. He had those coins. He
was making his own way.
Counsel’s defense theory and arguments advanced
to the jury had little to do with Peithman’s prison stay
or supervised release conditions. He argued this case
was a “smoke-filled prosecution.” He argued it was a
case of “gotcha.” Counsel argued that the Peithman/Elder family had been targeted because of their wealth.
He argued Elder was innocent of the charges because
she acted in good faith and did everything she could to
ensure the products she was selling were legal. Counsel
argued Peithman was out of the smoke shop business
during the time frame alleged in the indictment because he was a landlord. He was in the business of buying and leasing real estate. A review of the trial transcript demonstrates that Peithman was not forced to,
and he did not, embrace a defense focused on the period
of incarceration and conditions of supervised release
because Count XIV was submitted to the jury.
Motions for a new trial are warranted only when
“a serious miscarriage of justice may have occurred.”
United States v. Braden, 844 F.3d 794, 801 (8th Cir.
2016) (quoting United States v. Fetters, 698 F.3d 653,

25a
656 (8th Cir. 2012)). An evidentiary error is harmless
if it did not substantially influence the jury’s verdict.
United States v. Aldridge, 664 F.3d 705, 714 (8th Cir.
2011) (quoting United States v. Henderson, 613 F.3d
1177, 1183 (8th Cir. 2010)). “Error may be harmless
where ‘the government introduced ample competent
evidence from which the jury could conclude beyond a
reasonable doubt that the defendant was guilty even
without the evidence that should have been excluded.’” United States v. Cotton, 823 F.3d 430, 435
(8th Cir. 2016) (quoting Aldridge, 664 F.3d at 714).
The error in submitting to the jury a statutory sentencing enhancement is not one we consider lightly. On
this record, however, the error was harmless. Both
Peithman and Elder discussed Peithman’s incarceration and supervised release status during their interview with law enforcement officers. Even if Count XIV
had not existed, the court indicated it would have allowed those statements to be introduced at trial.
Peithman has not persuaded us that he likely would
have been successful in limiting the statements at issue
in the absence of Count XIV. Regardless of Count XIV,
an explanation of Peithman’s absence from the smoke
shop business during a portion of the relevant time period would have been before the jury. More importantly
and contrary to Peithman’s argument, inclusion of evidence regarding Peithman’s prior conviction, period of
incarceration, and conditions while on supervised release did not force upon him a defense strategy that he
did not select. In fact, he chose a different strategy,
which in the end did not persuade the jury. The district
court did not abuse its discretion by denying Peithman’s
motion for a new trial.

26a
2.
Public Authority/Entrapment by Estoppel Defense
Elder argues the district court erred by refusing
to allow her to present a public authority/entrapment
by estoppel defense. We review the refusal to permit
an affirmative defense de novo because it is question
of law. United States v. Carlson, 810 F.3d 544, 554
(8th Cir. 2016).
Elder sought to present a public authority or entrapment by estoppel defense on the ground that, after
the inventory was seized during execution of the search
warrant, the city attorney provided her with a community protection agreement. The agreement requested
Elder to voluntarily “cease and desist” selling “potpourri” and it set a signing deadline of May 15, 2015.
The letter warned Elder that if she did not voluntarily
sign the agreement, the city would take “legal action in
the very near future.” In seeking to present these affirmative defenses, Elder also relied on what she described as a “close working relationship with law enforcement” with regard to what substances were legal
or illegal as well as an unnamed police officer who she
alleged told her it was legal to sell synthetic cannabinoids in Lincoln.
A “public authority defense requires a defendant to
show that [s]he was engaged by a government official
to participate in a covert activity.” United States v.
Parker, 267 F.3d 839, 843 (8th Cir. 2001) (citing United
States v. Achter, 52 F.3d 753, 755 (8th Cir. 1995)).
There is no evidence that Elder relied on the authority
of a government official when operating the smoke
shops at issue, nor is there evidence that a federal law

27a
enforcement officer asked her to act in a manner in violation of federal law. The district court properly declined to instruct the jury on the defense of public authority.
“Entrapment by estoppel arises when a government official tells a defendant that certain conduct is
legal, and the defendant commits what otherwise
would be a crime in reasonable reliance on the official
representation.” Parker, 267 F.3d at 844 (citing United
States v. Benning, 248 F.3d 772, 775 (8th Cir. 2001)).
In the letter to Elder, the city attorney never told Elder
her conduct was legal. The city made no promises regarding criminal prosecutions and specifically explained to Elder that an agreement by the city not to
take legal action against the businesses selling “potpourri,” such as declaring them public nuisances, was
not binding on federal, state, or local prosecuting authorities. Elder has not shown a representation made
by the city was misleading, let alone intentionally misleading. In addition, Elder cannot show reliance, particularly when the city attorney’s statements were
made after execution of the search warrant.
Elder’s willingness to sign a community protection
agreement, after contraband had been seized, is not evidence that a government official told Elder that her
conduct was legal. Likewise, Elder’s willingness to
work with law enforcement by removing particularly
potent “potpourri” packets for sale because consumers
were overdosing and some almost died is not evidence
that a government official told Elder the products were
legal to sell. The district court properly declined to instruct the jury on the defense of entrapment by estoppel.

28a
3.

Sufficiency of the Evidence

Peithman argues the evidence was insufficient to
support the existence of a conspiracy or to prove the
conviction for investment of illicit drug profits. Elder
argues the evidence was insufficient to support the
sale of misbranded drugs and the existence of structuring of bank deposits.
“We review challenges to the sufficiency of the evidence de novo.” United States v. Johnson, 745 F.3d
866, 868–69 (8th Cir. 2014) (citing United States v. Sullivan, 714 F.3d 1104, 1107 (8th Cir. 2013)). The evidence is to be viewed “in the light most favorable to the
guilty verdict, granting all reasonable inferences that
are supported by that evidence.” Id. at 869. In our review, we do not weigh the evidence or the credibility of
the witnesses. United States v. Wiest, 596 F.3d 906,
910 (8th Cir. 2010) (citing United States v. Honarvar,
477 F.3d 999, 1000 (8th Cir. 2007)). “We will reverse a
conviction only if no reasonable jury could have found
the defendant guilty beyond a reasonable doubt.”
Johnson, 745 F.3d at 869.
Sufficient evidence was presented to sustain a jury
finding that Peithman was more than “merely associated with” Elder. Peithman and Elder ordered “potpourri” and drug paraphernalia from out-of-state suppliers. The products were shipped to Dirt Cheap and
Island Smokes using interstate common carriers such
as FedEx and UPS. Typically, payments for the shipments were made with money orders and/or cashier’s
checks. Peithman and Elder attempted to disguise the
amounts and cash proceeds from the sale of illegal

29a
products by making cash deposits using different tellers, different branches of the same bank, different accounts, different banks, and by purchasing money orders at multiple agents to avoid the filing of currency
transaction reports for deposits exceeding the $10,000
threshold as provided in 31 U.S.C. § 5313.
Store employees testified about their knowledge
and understanding of Peithman’s involvement in the
businesses. It was clear that Peithman and Elder communicated regularly about the businesses’ operation.
Peithman accepted rent payments from Elder for Dirt
Cheap and Island Smokes. Proceeds from the sale of
drug paraphernalia and misbranded drugs were used
to purchase the building and real property where Island Smokes was located. Additional real estate and
vehicles were also purchased with money obtained
through the sale of drug paraphernalia and misbranded drugs. Peithman and Elder had knowledge
that the “potpourri” being sold at Island Smokes and
Dirt Cheap was being smoked by consumers. There
was evidence presented at trial by way of expert testimony that the “potpourri” failed to comply with FDA
labeling requirements.
The evidence overwhelmingly established the existence of a conspiracy, that illicit drug profits were
used to purchase real and personal property, the sale
of misbranded drugs occurred during the time period
alleged in the indictment, and structuring took place
to disguise the proceeds being realized from the sale of
unlawful controlled substances and drug paraphernalia. Neither Peithman nor Elder have presented a sufficient reason to disturb the jury’s findings.

30a
4.

Request to Remove Sick Juror

Peithman argues the district court abused its discretion by refusing to substitute an alternate juror in
place of a temporarily sick juror. See United States v.
Blom, 242 F.3d 799, 805 (8th Cir. 2001) (noting “most
rulings on juror challenges are reviewed on appeal for
abuse of discretion”). Juror No. 4 announced on the afternoon of the fourth day of trial that she was tired and
unable to concentrate. She had been taking medication
for mononucleosis and was so tired in the evenings
that she could not work as a Mary Kay consultant. The
court recessed the trial for the day to allow the juror to
rest. On the next morning, the juror indicated she was
feeling better. The judge asked the following question,
which was approved by the lawyers: “If you were to remain as a juror, are you confident or not confident that
you will be able to render a thoughtful and attentive
decision?” The juror responded: “I’m confident that I
would be.”
In light of the juror’s representation that she
would be able to be attentive for the remainder of the
trial and the lack of any indication the juror was unable to understand or appreciate the evidence that had
been presented before she informed the court of her exhaustion, the district court did not abuse its discretion
in denying the motion to strike the juror and replace
her with an alternate.

31a
5.

Money Judgment

The indictment sought forfeiture under 31 U.S.C.
§ 5317(c); 18 U.S.C. §§ 981(a)(1)(C) and 982(a)(1); and
28 U.S.C. § 2461(c) of all real and personal property
upon conviction of an offense listed in Counts XI
through XIII. Peithman and Elder each were convicted
on Counts XI (conspiracy to commit mail fraud) and
XII (conspiracy to structure financial transactions).
The indictment also sought forfeiture under 21 U.S.C.
§ 853(a) of specified real property; vehicles; bank accounts; and controlled substances, drug paraphernalia, and/or misbranded drugs upon conviction of a controlled substance offense listed in Counts I through IX.
Peithman and Elder each were convicted of Count VIII
(conspiracy to distribute and possess with intent to distribute drug paraphernalia). The government further
sought a money judgment as part of the forfeiture allegations for the convictions related to the sale of drug
paraphernalia, mail fraud, and structuring.
The court imposed a money judgment in the total
amount of $1,142,942.32 plus interest as provided by
law. This amount consisted of the costs to purchase
drug paraphernalia, which the court found totaled
$117,653.57, plus the costs to purchase “potpourri” related to the mail fraud conviction, which the court
found totaled $1,025,288.75.
Peithman and Elder have not challenged the government’s asserted statutory bases for forfeiture. Rather, they argue the money judgment imposed jointly
and severally against them (and their companies)
should be vacated because it is inconsistent with the
jury’s decision not to forfeit most of their property and

32a
contrary to the Supreme Court’s decision in Honeycutt
v. United States, 137 S. Ct. 1626 (2017). “[W]e review
the district court’s factual findings for clear error but
apply a de novo standard of review to [the issue] of
whether or not those facts render the [asset] subject to
forfeiture.” United States v. Dodge Caravan Grand
SE/Sport Van, VIN No. 1B4GP44G2YB7884560, 387
F.3d 758, 761 (8th Cir. 2004) (citing United States v.
$84,615 in U.S. Currency, 379 F.3d 496, 501 (8th Cir.
2004)). “If the government seeks a personal money
judgment, the court must determine the amount of
money that the defendant will be ordered to pay.” Fed.
R. Crim. P. 32.2(b)(1)(A). “The court may make the determination based on evidence in the record, or on additional evidence submitted by the defendant or evidence submitted by the government in support of the
motion for the entry of a judgment of forfeiture.” Fed.
R. Crim. P. 32.2 advisory committee’s notes to the 2000
amendments. The government bears the burden of
proving by a preponderance of the evidence the
amount of the proceeds that should be subject to a personal money judgment. United States v. Bieri, 21 F.3d
819, 822 (8th Cir. 1994).
When reviewing money judgments, we have explained: “[T]he law does not demand mathematical exactitude in calculating the proceeds subject to forfeiture.” United States v. Prather, 456 F. App’x 622, 626
(8th Cir. 2012) (quoting United States v. Roberts, 660
F.3d 149, 166 (2d Cir. 2011)). “Rather, district courts
may use general points of reference as a starting point
for a forfeiture calculation and make reasonable extrapolations supported by a preponderance of the evidence.” Id.

33a
21 U.S.C. § 853 provides that a defendant convicted of an enumerated controlled substance offense
“shall forfeit to the United States … any property constituting, or derived from, any proceeds the person obtained, directly or indirectly, as a result of such violation.” In Honeycutt v. United States, the Supreme
Court held that forfeiture of property under § 853 is
limited to property the defendant himself actually acquired as a result of the crime, and further held that
joint and several liability was not appropriate for coconspirators. 137 S. Ct. at 1632–33. In Honeycutt, the
Court declined to hold a co-conspirator responsible for
the entire forfeiture judgment when he only managed
the sales and inventory, had no ownership interest,
and never obtained tainted property. Here, both
Peithman and Elder had ownership interests, worked
together to operate the businesses, and shared in the
proceeds obtained by engaging in criminal activity.
While we find no clear error in the court’s determination that Peithman and Elder were equally culpable,
Honeycutt precludes the district court from imposing
joint and several liability for co-conspirators under
§ 853. We reverse that portion of the money judgment
($117,653.57) imposed jointly and severally under
§ 853 relating to the conviction for conspiracy to distribute drug paraphernalia, and remand for proceedings consistent with this opinion.
The bulk of the total money judgment imposed related to the conviction for conspiracy to commit mail
fraud regarding misbranded drugs (the “potpourri”).
Section 981(a)(1)(C) provides for the forfeiture of “[a]ny
property, real or personal, which constitutes or is derived from proceeds traceable to a violation of … any

34a
offense constituting ‘specified unlawful activity’ (as defined in § 1956(c)(7) of this title), or a conspiracy to
commit such offense.” 18 U.S.C. § 981(a)(1)(C). “Mail
fraud is a ‘specified unlawful activity.’” United States
v. Adetiloye, 716 F.3d 1030, 1041 (8th Cir. 2013) (citing
18 U.S.C. § 1956(c)(7)).
We note a circuit split has developed on the question of whether Honeycutt applies to criminal forfeitures under § 981(a)(1)(C). Compare United States v.
Sexton, 894 F.3d 787, 798–99 (6th Cir. 2018) (holding
that Honeycutt does not apply to forfeiture under 18
U.S.C. § 981(a)(1)(C)), with United States v. Gjeli, 867
F.3d 418, 427 (3d Cir. 2017) (finding that 18 U.S.C.
§ 981(a)(1)(C) is substantially the same as the [statute]
under consideration in Honeycutt), and United States
v. Carlyle, 712 F. App’x 862, 864–65 (11th Cir. 2017)
(per curiam) (remanding to the district court for a determination on whether Honeycutt governed wire
fraud forfeiture under § 981(a)(1)(C) and observing it
appeared likely to apply). A review of the text and
structure of the two statutes reveals similarities and
also notable differences. Unlike in 21 U.S.C. § 853, the
term “proceeds” is defined in 18 U.S.C. § 981(a)(1)(C).
And it is broadly defined in three different ways. Section 981(a)(2) provides distinct definitions for three
categories of offenses. As relevant in this case,
§ 981(a)(2)(A) defines proceeds as “property of any kind
obtained directly or indirectly, as a result of the commission of the offense giving rise to forfeiture, and any
property traceable thereto, and is not limited to the net
gain or profit realized from the offense.” The two statutes being compared are similar in a sense that they
both use the verb “obtained,” which the Supreme Court
placed great emphasis on when it limited forfeiture to

35a
personal liability. It is also notable that the requirement that property be “traceable” to the commission of
the offense as contained in § 981(a)(2)(A) is similar to
§ 853’s requirement that the property be “tainted,” as
described in Honeycutt.
Turning to the differences between the statutes, a
material distinction is the lack of a reference to a “person” in § 981. See Sexton, 894 F.3d at 799 (describing
the phrase “the person obtained” as the “linchpin” of
the Honeycutt decision). In contrast, § 853 applies to
property “the person obtained, directly or indirectly, as
the result of” the crime. The Supreme Court noted that
§ 853(a) “define[d] forfeitable property solely in terms
of personal possession or use.” 137 S. Ct. at 1632.
The plain language under § 981 is broader than
§ 853 and less focused on personal possession. As set
forth in § 981(a)(2)(A), property is subject to forfeiture
if it is “traceable” to the crime. The statute does not
contain any language that requires possession of the
property by the defendant, either explicitly or implicitly. We think these differences are significant. We join
the Sixth Circuit and conclude that the reasoning of
Honeycutt is not applicable to forfeitures under 18
U.S.C. § 981(a)(1)(C) and hold the district court did not
err when imposing joint and several liability as to this
portion of the money judgment.
When determining the amount of the money judgment, the district court reasoned that by concentrating
on the wholesale costs, the money judgment would be
proportional to the gravity of Peithman’s and Elder’s
offenses. We find no clear error in the district court’s
decision to use the cost of acquiring the “potpourri,” nor

36a
in its calculation of the appropriate amount which
flowed from the conspiracy to commit mail fraud as to
the sale of misbranded drugs. See Prather, 456 F. App’x
at 625 (affirming court’s imposition of a $41,600 money
judgment based on the defendant’s statement that he
sold crack cocaine for 52 weeks and profited in the
amount of $800 per week). The fact that the jury did
not forfeit Peithman’s real property, vehicles, or bank
accounts does not render the court’s determination in
error. Likewise, the fact that the jury forfeited one of
Elder’s bank accounts and found her corporation, Cornerstone Plaza, guilty of five counts does not render
imposition of joint and several liability under 18 U.S.C.
§ 981(a)(1)(C) in error. We affirm the district court’s
imposition of a joint and several money judgment under § 981(a)(1)(C) in the amount of $1,025,288.75.
6.
Sentencing Guidelines Calculations and
Reasonableness of Sentences
We review a district court’s factual findings pertaining to the calculation of the applicable United
States Sentencing Guidelines (“U.S.S.G.” or “Guidelines”) range for clear error and its application of the
Guidelines de novo. United States v. Hairy Chin, 850
F.3d 398, 402 (8th Cir. 2017) (quoting United States v.
Barker, 556 F.3d 682, 689 (8th Cir. 2009)). If we find
no error, we review the sentence for substantive reasonableness. Id.
Both Peithman and Elder were sentenced within
the Guidelines range as calculated by the district
court. A sentence within the Guidelines range is presumptively reasonable. United States v. Washington,
893 F.3d 1076, 1080 (8th Cir. 2018) (quoting United

37a
States v. Meadows, 866 F.3d 913, 920 (8th Cir. 2017)).
We review a district court’s refusal to grant a defendant’s requested downward variance for abuse of discretion. United States v. Jackson, 852 F.3d 764, 777 (8th
Cir. 2017). Likewise, we review the substantive reasonableness of a sentence under the deferential abuseof-discretion standard. United States v. Feemster, 572
F.3d 455, 461 (8th Cir. 2009) (quoting Gall v. United
States, 552 U.S. 38, 51 (2007)). “A district court abuses
its discretion when it ‘(1) fails to consider a relevant
factor that should have received significant weight’; (2)
‘gives significant weight to an improper or irrelevant
factor’; or (3) ‘considers only the appropriate factors but
in weighing those factors commits a clear error of judgment.’” Id. (quoting United States v. Kane, 552 F.3d
748, 752 (8th Cir. 2009)).
A. Allen Peithman, Jr.’s Sentence
Peithman argues the district court miscalculated
his Guidelines range, erred in failing to consider
U.S.S.G. § 5G1.3(b), and abused its discretion by refusing to grant a more substantial downward variance.
The court determined Peithman’s base offense level
was 24. The court applied a two-level enhancement under U.S.S.G. § 2D1.1(b)(12) for maintaining a premises
for the purpose of distributing a controlled substance.
The court also applied a two-level increase for obstruction of justice because Peithman hid assets for the purpose of avoiding forfeiture. The concealed assets included “hundreds of thousands of dollars” and gold and
silver.
After the increases, Peithman’s total offense level
was 28. With eight criminal history points, Peithman

38a
was in criminal history category IV. These determinations resulted in an advisory Guidelines sentencing
range of 110 to 137 months. The court contemplated a
sentence below the advisory Guidelines range for two
reasons: (1) reluctance to rely on acquitted conduct;
and (2) the manner in which the Guidelines convert
“potpourri” to a marijuana equivalent. The Guidelines
utilize a ratio of 1 gram of synthetic controlled substance to 167 grams of marijuana. The court noted its
“dissatisfaction” with that ratio.
The court varied downward two levels, which produced an advisory Guidelines sentencing range of 92 to
115 months. Peithman was sentenced to concurrent
115 month terms of imprisonment on Counts IX, XI,
and XII. The court imposed concurrent sentences of 36
months on Counts VIII and X–offenses that carried a
statutory maximum imprisonment term of 36 months.
Peithman asserts the court erred when it applied
an enhancement under § 2D1.1(b)(12) because the enhancement only applies to controlled substance offenses, not paraphernalia offenses, and it improperly
included acquitted conduct. We disagree.
The Guidelines explain that “[m]anufacturing or
distributing a controlled substance need not be the sole
purpose for which the premises was maintained, but
must be one of the defendant’s primary or principal
uses for the premises, rather than one of the defendant’s incidental or collateral uses for the premises.”
U.S.S.G. § 2D1.1 cmt. n.17. The evidence presented at
trial established Peithman maintained a business with
the sale of “potpourri” as a primary use. According to
Peithman’s own admissions, “potpourri” was in high

39a
demand and was more profitable than other items sold
at the store.
Peithman’s second assertion pertaining to consideration of acquitted conduct is foreclosed by our precedent. “Whether or not the district court relied on acquitted conduct, ‘[i]t is settled in this circuit ... that the
Constitution does not preclude a district court from
considering acquitted conduct in sentencing a criminal
defendant.’” United States v. Roberts, 881 F.3d 1049,
1053 (8th Cir. 2018) (quoting United States v. Papakee,
573 F.3d 569, 576 (8th Cir. 2009)). The district court
did not err in applying the enhancement under
U.S.S.G. § 2D1.1(b)(12).
Peithman also argues the district court erred by
applying an obstruction of justice enhancement under
U.S.S.G. § 3C1.1. The court found Peithman had lied
to pretrial services when he failed to disclose money
located in a safe. During the forfeiture portion of the
trial, Peithman admitted he failed to report all assets
to his pretrial services officer in an attempt to keep the
assets from being taken. Application note 4(H) to
§ 3C1.1 states the enhancement applies to conduct
that involves “providing materially false information
to a probation officer in respect to a presentence or
other investigation for the court.” Based on Peithman’s
own admission, the district court did not clearly error
in applying a two-level increase for obstruction of justice.
Peithman next claims the district court erred by
refusing to give him a two-level downward adjustment
for being a minor participant. Peithman was not a mi-

40a
nor participant in the offenses. The evidence in the record supports the district court’s finding that Peithman
was as culpable as Elder. There was sufficient evidence
for a jury to find Peithman understood the scope and
structure of the criminal activity and participated in it.
Peithman was ineligible for a minor-role adjustment.
Peithman next argues the district court erred in
cross-referencing the controlled substance table.
U.S.S.G. § 2D1.7 is entitled “Unlawful Sale or Transportation of Drug Paraphernalia; Attempt or Conspiracy.” Subsection (b) of § 2D1.7 provides for a cross-reference if the offense involved a controlled substance.
Peithman was involved in the sale of misbranded
drugs that tested positive for a DEA Schedule I controlled substance. The cross-reference plainly applied.
Peithman’s last claim of error regarding the Guidelines calculation pertains to the structuring conviction.
Peithman contends the amount that should have been
attributed to him is less than $550,000 due to the period of time he was incarcerated. The structuring conviction played no role in sentencing Peithman because
it was grouped with the other convictions. When offenses are grouped, the Guidelines range that produces
the highest offense level is used. U.S.S.G. § 3D1.3(b).
In this case, it was the conviction for possession and
distribution of drug paraphernalia that produced the
highest offense level relied on by the court at sentencing. Finding no calculation error for that conviction,
any error with regard to the structuring conviction is
harmless.
Peithman argues in the alternative that if the district court calculated the Guidelines range correctly,

41a
the district court erred by not granting a more substantial downward variance. Peithman asserts the variance the district court granted “was more form over
substance” since the sentence fell within the original
Guidelines range of 110 to 137 months. We find the
district court acted within its discretion when it varied
downward and then imposed a sentence within the reduced Guidelines range that happened to also be
within the initial Guidelines range.
Finally, Peithman argues the court’s decision to
impose a consecutive sentence on the revocation matter was in error under U.S.S.G. § 5G1.3(b). The district
court also found it was not going to account for the six
month state probation revocation sentence because
“they’re two separate crimes.” U.S.S.G. § 7B1.3(f)
states:
Any term of imprisonment imposed upon
the revocation of supervised release … shall be ordered to be served consecutively to any sentence of imprisonment that the defendant is serving,
whether or not the sentence of imprisonment being served resulted from the conduct that is the basis of the revocation of
probation or supervised release.
Section 5G1.3(b) gives the court the authority to
adjust a sentence if the court determines a period of
imprisonment served on an undischarged imprisonment term will not be credited by the Bureau of Prisons and the sentence for the instant offense is ordered
to run concurrently to the remainder of the undischarged term of imprisonment. “[S]ection 5G1.3(b)(2)

42a
does not prohibit the district court from exercising its
statutory authority to impose a consecutive sentence.”
United States v. Benson, 888 F.3d 1017, 1019 (8th Cir.
2018) (citing United States v. Martinez Rodriguez, 508
F. App’x 573, 575 (8th Cir. 2013)). The district court
did not err when it imposed a consecutive sentence on
the federal revocation case. Further, the district court
acted within its discretion when it declined to account
for the six month state sentence because it found they
were separate crimes. See United States v. Mathis, 451
F.3d 939, 941 (8th Cir. 2006) (noting the district court’s
wide discretion to run a federal sentence consecutive
to an undischarged state offense).
Upon our careful review of the record, we find no
error in the calculation of the Guidelines range in
Peithman’s case. The district court did not abuse its
discretion when it imposed the sentences it did.
B. Sharon Elder’s Sentence
Elder argues the district court erred when it based
its sentence upon acquitted conduct, in determining
the applicable base offense level, in failing to depart or
vary from the Guidelines, and in imposing a substantively unreasonable sentence. The district court found
Elder’s base offense level was 24, using the cross-reference to U.S.S.G. § 2D1.1(a)(5) and the drug quantity
table. Like Peithman, the court applied a two-level enhancement under U.S.S.G. § 2D1.1(b)(12) for maintaining a premises for the purpose of distributing a
controlled substance. A total offense level of 26 and
criminal history category I resulted in an advisory
Guidelines sentencing range of 63 to 78 months. The
court treated Elder similarly to Peithman and varied

43a
two-levels downward for the same reasons it did in
Peithman’s case, as discussed in the previous subsection. Elder’s advisory Guidelines sentencing range was
51 to 63 months. Elder was sentenced to concurrent 63
month terms of imprisonment on Counts IX, XI, and
XII and concurrent 36 months terms on Counts VIII
and X–offenses that carried a statutory maximum imprisonment term of 36 months.
For the same reasons that applied in Peithman’s
case, as discussed in the previous subsection, Elder’s
challenges to the cross-reference and use of the drug
quantity table are without merit. Although the jury acquitted Elder of the substantive offenses for distribution of controlled substances, the court may rely on acquitted conduct at sentencing. Roberts, 881 F.3d at
1053. The evidence presented at trial established that
the primary sale of goods at Island Smokes was the
sale of “potpourri.” The court properly applied
§ 2D1.1(b)(12).
Elder’s within-Guidelines range sentence is presumptively reasonable. Washington, 893 F.3d at 1080.
We find no error by the district court in calculating the
Guidelines or applying the Guidelines in Elder’s case.
We find the district court did not abuse its discretion
when it refused to grant a more substantial downward
variance or a downward departure. Elder suggests her
sentence is substantively unreasonable, but she cannot
point to anything in particular to rebut the presumption of reasonableness to a within-Guidelines-range
sentence like this one. Her age, alleged poor health,
hardship caused by incarceration, and conduct giving
rise to the convictions were all considerations brought

44a
to the district court’s attention. The district court did
not err or abuse its discretion when sentencing Elder.
III. Conclusion
For the foregoing reasons, we reverse the money
judgment imposed jointly and severally under 21
U.S.C. § 853 in the amount of $117,653.57 and remand
for further proceedings consistent with this opinion,
but affirm the convictions and sentences in all other
respects.

45a
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
UNITED STATES OF
AMERICA,

4:15CR3091

Plaintiff,
v.
ALLEN E. PEITHMAN JR.,
SHARON A. ELDER, CORNERSTONE PLAZA, INC.,
AEP PROPERTIES, L.L.C.,

MONEY
JUDGMENT

Defendants.
Pursuant to the sentencing on August 1, 2017,
and based upon the authorities and reasoning forth in
filing no. 3481 and such other findings, conclusions
and pronouncements made at the time of sentencing,
IT IS ORDERED judgment is entered in favor of the
United States of America and against each of the above
named defendants in the total sum $1,142,942.32 plus
interest as provided by law. Liability for payment of the
judgment is joint and several.2
United States v. Peithman, No. 4:15CR3091, 2017 WL 1682778
(D. Neb. May 1, 2017), as amended at filing no. 352 to update the
citations to Stefan D. Cassella, Asset Forfeiture Law in the
United States.

1

Each of the individuals and their entities were equally culpable. The respective entities were instrumentalities employed by
the individuals to accomplish their illegal ends. Accordingly,

2

46a
DATED this 2nd day of August, 2017.
BY THE COURT:
s/ Richard G. Kopf
Senior United States District Judge

Honeycutt v. United States, 137 S. Ct. 1626 (June 5, 2017) is distinguishable and does not bar joint and several liability.

47a
APPENDIX G
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
UNITED STATES OF
AMERICA,
Plaintiff,
v.
ALLEN E. PEITHMAN
JR., SHARON A. ELDER,
CORNERSTONE PLAZA,
INC., and AEP PROPERTIES, L.L.C.,

4:15CR3091

MEMORANDUM
AND ORDER

Defendants.
There are two matters pending before me that are
intertwined and mind-numbingly complex, yet require rapid resolution so that sentencing may proceed. I am reminded of William Shakespeare’s advice.
In his play, Hamlet, in the second act, Polonius
(speaking for the Bard of Avon) asserts, “Since brevity
is the soul of wit/And tediousness the limbs and outward flourishes, I will be brief.…”

48a
What’s This Fight About?
Although set forth in 141 counts and over 30 pages
in the indictment, this case boiled down to the alleged
illegal sale of “potpourri” (sometimes called “K-2”) and
drug paraphernalia by a local “head shop” that generated a lot of money. After a long, and very well fought
jury trial, a wise and discriminating jury found the
defendants guilty of some counts but not guilty on
other counts. In particular, the jury found that all of
the defendants except AEP were guilty of Count 8,
conspiracy to distribute drug paraphernalia, and
Count 11, conspiracy to commit mail fraud by, among
other things, acquiring for resale misbranded drugs
(the “potpourri”). The jury found that all defendants
were guilty of Count 12, conspiracy to structure currency transactions that followed the acquisition of the
drug paraphernalia and potpourri.
The government sought forfeiture of specific property. It set forth the statutory authorization for forfeiture at pages 29 and 30, paragraphs 1-3, in the indictment. I will not repeat or discuss those statutes because the defendants have not asserted that the government lacks a statutory basis for forfeiture.
Both parties demanded (or at least agreed) that
the jury also determine whether the sought-after specific property should be forfeited. The jury agreed that
packets of potpourri and related drug paraphernalia
The indictment and jury instructions used Roman numerals.
For this purpose, I eschew that formalism.

1

49a
together with one bank account should be forfeited.
The jury was unable to reach a unanimous agreement
on some other specific items and found other specific
items should not be forfeited. The items the jury did
not forfeit or about which they could not reach agreement are the most valuable items of specific property.
The government also sought a money judgment as
part of the forfeiture allegations for Count 82 and
Count 113 and and Count 12.4 But that matter, quite
properly and as I will discuss later, was not submitted
to the jury.
The government now asks me to enter a money
judgment at the time of sentencing against the defendants. At the same time, the defendants seek a return of the property that the jury did not forfeit. The
parties were heard, and evidence was received on
April 24, 2017.

“A sum of money equal to the total amount of the proceeds of
the violations of the Controlled Substances Act, as set out in
Counts I through IX.” (Filing no. 1 at CM/ECF p. 31.) Count 8,
for which there was a conviction, charged a conspiracy to sell
drug paraphernalia in violation of 21 U.S.C. § 863(a)(l) and 21
U.S.C. § 846.

2

“A sum of money equal to the total amount involved in the mail
fraud conspiracy as set out in Count XI.” (Filing no. 1 at CM/ECF
p. 32.)

3

“A sum of money equal to the total amount involved in the
structuring conspiracy offense, Count XII.” Id.
4

50a
Money Judgment
The term “money judgment” is “a short-hand way
of describing the defendant’s continuing obligation to
forfeit the money derived from or used to commit his
criminal offense whether he has retained the actual
dollars in his possession or not.” Stefan D. Cassella,
Asset Forfeiture Law in the United States - Second
Edition, at 579 (2013) (italics added) (hereafter “Cassella”).5 Indeed, “[t]he use of money judgments in
criminal forfeiture cases is now well-established in
the case law.” Id. at 580.
More specifically, Federal Rule of Criminal Procedure 32.2 explicitly contemplates that the government may seek a money judgment. For example, see
Rule 32.2(a), Rule 32.2(b)(1)(A), and Rule
32.2(b)(2)(A). If the government seeks a personal
money judgment, “the court must determine the
amount of money that the defendant will be ordered
to pay.” Rule 32.2(b)(1)(A) (italics added). The right to
a jury determination is limited to “the forfeitability of
specific property.” Rule 32.2(b)(5)(A) (italics added).
By the greater weight of the evidence, I preliminarily decide that the government is entitled to a
money judgment against all four defendants jointly
and severally. I find by the greater weight of the evidence this judgment should be in the sum of
$1,142,942.32. (See Hearing Exs. 68, 68A, 69, 69A
(Apr. 24, 2017).) This represents the wholesale costs
Although awkward to use online, this book is available through
Google Scholar.

5

51a
of acquiring the drug paraphernalia and potpourri,
the sale of which generated the structuring conviction.
I have intentionally concentrated on activities
that go to the core of the illegal activity and that facilitated everything that followed. Particularly to
avoid double counting, I did not, at least directly, rely
heavily on a “proceeds theory.”6
Such an approach is consistent with the law:
Money judgments … are not limited to
property forfeited under a “proceeds”
theory, if a sum of money was used to facilitate an offense, it may be forfeited in
the form of a money judgment. See
United States v. Puche, 350 F.3d 1137,
1153-54 (11th Cir. 2003) (affirming
money judgment equal to the combined
value of the commission paid to the
money launderer and the untainted
money used to facilitate the offense);
United States v. Numisgroup International Corp., 169 F. Supp. 2d 133, 136
(E.D.N.Y. 2001) (money judgment entered under § 982(a)(8) may be based on
the value of the gross proceeds derived
from the offense and the value of the
property used to facilitate or promote it);
United States v. Harrison, 2001 WL
However, because the purchases were repetitive, it is likely
that the proceeds of sale from one acquisition were used to facilitate (fund) a subsequent acquisition.
6

52a
803695, at *1-2 (N.D. Ill. 2001) (Government entitled to money judgment for the
amount of money defendant used to facilitate his drug offense – i.e., the
amount he used to purchase drugs.)
Cassella, at 588 & n.63 (italics added).
I next turn to the arguments of the parties. The
government seeks $2,248,728.56.
However, if I granted the government’s request, I
fear that I would be double counting should I include
those sums. Besides, by concentrating on the wholesale costs of the acquisition of the drug paraphernalia
and the misbranded drugs, I have gotten to the core
of the illegal activity. In this regard, I must not go
overboard and thereby violate the Constitution. See
United States v. Bajakajian, 524 U.S. 321, 334 (1998)
(“We now hold that a punitive forfeiture violates the
Excessive Fines Clause if it is grossly disproportional
to the gravity of a defendant’s offense.”) By concentrating on wholesale costs, the money judgment is
proportional to the gravity of defendants’ offenses
since that is the amount of money they elected to
spend to further their illegal goals. In any event, the
government has not convinced me by the greater
weight of the evidence that the money judgment it
seeks is warranted by the evidence.
As for the defendants, they argue that I should
not award a money judgment of any kind. They especially argue that the jury did not return a forfeiture
verdict for a money judgment or the great bulk of the

53a
especially valuable specific items of property and, accordingly, I should not do so either. I am not persuaded.
I make two observations regarding defendants’
arguments. First, no defendant sought a jury determination on the money judgment question. Even if
they had done so, I would not have put the matter to
the jury. This is so because (a) the law (particularly
Rule 32.2) does not allow or provide for such a jury
determination and (b) such a determination would
practically be beyond the keen of the jury to do so.
Second, the fact that the jury did not forfeit valuable items of specific property is no reason to deny the
government a money judgment. Indeed, the fact that
the jury did not return a verdict of forfeiture for some
items does not mean that those same items may not
later be used to satisfy a forfeiture obligation otherwise imposed by the law. Cassella, at 579 & n.30 (See
United States v. Weiss, 2005 WL 1126663, at *6-7
(M.D. Fla. May 6, 2005) (if jury fails to include an asset in the list of things directly traceable to the offense, the Government may seek forfeiture of the
same asset as a substitute asset); United States v.
Henry, 850 F. Supp. 681, 683 (M.D. Tenn. 1994), aff’d,
64 F.3d 664, 1995 WL 478635 (6th Cir. 1995) (Table)
(“the jury verdict indicating that the Ewing Court residence should not be forfeited does not prevent the forfeiture of the property as a substitute asset … the
very nature of a substitute asset requires that it is not
property which is directly forfeitable”)).

54a
Return of Property
The defendants seek a return of the specific items
of property that the jury did not forfeit. The law permits me to return those items now, but to condition
the use of the items in the hands of the defendants
since those items would become subject to levy, execution, and the like upon the entry of the money judgment described above.
Federal Rule of Criminal Procedure 41(g) provides in pertinent part that:
A person aggrieved … by the deprivation
of property may move for the property’s
return. The motion must be filed in the
district where the property was seized.
The court must receive evidence on any
factual issue necessary to decide the motion. If it grants the motion, the court
must return the property to the movant,
but may impose reasonable conditions to
protect access to the property and its use
in later proceedings. (Italics added.)
At this point, there can be no serious dispute that
the defendants are “aggrieved” by the continued deprivation of the specific property which the jury “acquitted” or about which they were unable to reach a
unanimous verdict. The government has raised no
convincing argument to the contrary.
On the other hand, it is obvious, given the likelihood of a money judgment, that I should impose “rea-

55a
sonable conditions” upon the use of the returned property. The defendants have raised no convincing argument to the contrary.
At the evidentiary hearing, I informed the lawyers that I was inclined to allow the defendants to use
the returned property for reasonable attorney fees
and expenses for these proceedings and upon appeal,
for reasonable support of Ms. Elder while she remains
released, and for payment of Mr. Peithman’s monthly
child support obligations. With that so stated, the parties came to an oral agreement in chambers about
how to effectuate the conditional return of such property. Counsel have now submitted to me via e-mail
their agreed proposal. With changes that I decided
were necessary, I generally adopt and include most of
their proposal in the following order.7
IT IS ORDERED that:
1. The motions related to these matters appearing
at filing no. 307, filing no. 322, filing no. 323, filing
no. 326, filing no. 329, and filing no. 331 are denied except as provided below.
2. At the time of sentencing, a money judgment will
be entered against the defendants, jointly and
severally, and in favor of the United States for the

The government continues to object to any return of property.
The defendants continue to object to the imposition of any conditions upon the returned property. Their agreement should not be
construed as a waiver of these positions.

7

56a
total sum of $1,142,942.32. The undersigned reserves the right to alter or amend said sum prior
to or at sentencing.
3. The defendants may challenge the money judgment set forth in paragraph 2, but only to the extent of attacking the factual accuracy of Exhibits
68, 68A, 69, and 69A received in evidence on April
24, 2017, or attacking the statutory basis for said
judgment as more particularly described in this
Memorandum and Order. Any such challenge shall
be raised by motion and brief submitted no later
than Thursday, June 1, 2017. 8
4. The money judgment described in paragraph 2
above and this Memorandum and Order shall be
construed as a preliminary order of forfeiture to
the extent of the money judgement. The United
States shall give such notice as required by law.
5. The government shall return the following property subject to the conditions hereinafter imposed:
A. The Food and Drug Administration is in possession of coins and silver seized from Peithman.
It will transfer custody of these items to the U.S.
Marshals Service (“Marshal”) office in Omaha,
Nebraska. The Marshal will maintain custody of
them pending further order of the Court.
The failure to file a motion and brief is not intended by me to
constitute on appeal a waiver of the defendants’ objection to the
entry of a money judgment. In other words, they need to do nothing more insofar as I am concerned to preserve their objections
to the money judgment.

8

57a
B. The following real properties are set forth in
the Forfeiture Allegation of the Indictment:
Pecks Grove (Subdivision of Block 1), Lot A, South
60 feet, North 85 feet, East 1/2, Lincoln, Lancaster County, Nebraska, commonly known as 1075
N. 33rd Street, Lincoln, Lancaster County, Nebraska;
Lot Four (4), Elm Place, an addition to Lincoln,
Lancaster County, Nebraska, commonly known
as 2705 Randolph, Lincoln, Lancaster County,
Nebraska;
Lots 5, 6 and 7, Elm Place, Lincoln, Lancaster
County, Nebraska, except that portion of Lots 6
and 7 deeded to the City of Lincoln, Nebraska by
virtue of Warranty Deed recorded June 13, 1978
as Inst. No. 78-15057 in the office of the Register
of Deeds, Lancaster County Nebraska, commonly
known as 810 South 27th Street, Lincoln, Lancaster County, Nebraska;
Lot C, Bignell’s Replat of Lots 4, 5, 6, 7, 8 and 9,
Block 54 of First Addition to Norwood Park, Lincoln, Lancaster County, Nebraska, commonly
known as 4524 N. 70th Street, Lincoln, Lancaster
County, Nebraska;
Lot 1, Except the North 125 feet thereof, Block 4,
Casino Heights, Lincoln, Lancaster County, Nebraska, commonly known as 119 S. 53rd Street,
Lincoln, Lancaster County, Nebraska.
On August 25, 2015, the United States filed a lis
pendens against each of the properties. Such lis
pendens shall remain in place until further order

58a
of this Court. Peithman owns two other real properties. The United States may file a lis pendens
on them.
C. The Marshal is in possession of $845.47 and
$7,651.03, both sums seized from Wells Fargo
bank accounts held in the name of Allen
Peithman, Jr. The Marshal shall tender these
sums to the trust account of Peithman’s attorney
of record, Korey L. Reiman.
D. The Marshal is in possession of $517.46 seized
from a Union Bank & Trust account held in the
name Sharon Elder. The Marshal shall tender
this sum to the trust account of Elder’s attorney
of record, Robert B. Creager.
E. The Marshal is in possession of $176,040.00
seized from a safe in Allen Peithman’s house. The
Marshal shall tender this money to the trust account of Korey L. Reiman.
F. The Marshal is in possession of $85,000.00
found on top of a large safe. The Marshal shall
tender this amount of money to the trust account
of Robert B. Creager.
G. The Marshal is in possession of $1,146.00
seized from Island Smokes; the Marshal is also in
possession of $330.00 seized from Dirt Cheap. The
Marshal shall tender both of these amounts to the
trust account of Robert B. Creager.
H. The Lincoln Police Department, as substitute
custodian for the Marshal, is in possession of a

59a
2006 Chevrolet Corvette, a 2012 Chevrolet Equinox LT, and a 2004 Mercedes Benz SL55AMG.
The Marshal and the Lincoln Police Department
shall tender possession of these vehicles to Sharon Elder, her representative, or her counsel, Robert B. Creager. The tender shall be at no cost to
Elder, her representative, or her counsel. Titles to
these vehicles are in the Court’s possession as exhibits. The titles will not be tendered to
Peithman, Elder, or their attorneys.
I. Mr. Reiman and Mr. Creager will accept these
funds on behalf of their clients with the following
understanding: Mr. Reiman and Mr. Creager may
each spend up to $75,000.00 of the funds they receive from the Marshal for the expenses these attorneys represent they need to incur in order to
proceed to sentencing and appeal, i.e., the services
of a forensic accountant, the trial transcript, attorney’s fees related to the sentencing hearings,
and attorney’s fees related to the appeals.9 Additionally, the attorneys have represented
Peithman has a child support obligation and Elder needs monthly living expenses. Accordingly,
over and above the $75,000.00, Mr. Reiman may
use $342.92 per month to pay Peithman’s child
support obligation. Mr. Reiman’s authority to
make such payment ends the day Peithman is
sentenced. Mr. Creager may use $2,000.00 per
Richard L. Boucher, Elder’s trial counsel who has withdrawn
as counsel, claims that he is entitled to $1,725.15 for medical
records obtained on behalf of Ms. Elder. Ms. Elder agrees. (Filing
no. 342.) Mr. Creager shall distribute that sum to Mr. Boucher
drawn from the $75,000 allocation.

9

60a
month to pay Elder’s living expenses. Mr. Creager’s authority to make such payment ends the
day Elder is sentenced.
J. Mr. Reiman and Mr. Creager accept these
funds from the Marshal and on behalf of their respective clients with the understanding they and
their clients, Peithman, Elder, and their corporate identities are ordered not to sell, transfer, assign, or take any action whatsoever which would
encumber the remaining funds in their counsels’
possession, the real estate upon which a lis pendens has been filed, and the vehicles returned to
Elder. If required by the Court, Mr. Reiman and
Mr. Creager shall provide an accounting.
K. Mr. Reiman and Mr. Creager may petition the
Court for authority to spend more funds on behalf
of their respective clients. The United States will
be allowed to express its opinion as to whether
any additional spending should be authorized.
DATED this 1st day of May, 2017.
BY THE COURT:
s/ Richard G. Kopf
Senior United States District Judge

61a
APPENDIX H
18 U.S.C. § 981
§ 981. Civil Forfeiture
(a)(1) The following property is subject to forfeiture
to the United States:
(A) Any property, real or personal, involved in a
transaction or attempted transaction in violation
of section 1956, 1957 or 1960 of this title, or any
property traceable to such property.
(B) Any property, real or personal, within the jurisdiction of the United States, constituting, derived from, or traceable to, any proceeds obtained
directly or indirectly from an offense against a foreign nation, or any property used to facilitate such
an offense, if the offense—
(i) involves trafficking in nuclear, chemical,
biological, or radiological weapons technology
or material, or the manufacture, importation,
sale, or distribution of a controlled substance
(as that term is defined for purposes of the
Controlled Substances Act), or any other conduct described in section 1956(c)(7)(B);
(ii) would be punishable within the jurisdiction of the foreign nation by death or imprisonment for a term exceeding 1 year; and
(iii) would be punishable under the laws of
the United States by imprisonment for a term

62a
exceeding 1 year, if the act or activity constituting the offense had occurred within the jurisdiction of the United States.
(C) Any property, real or personal, which constitutes or is derived from proceeds traceable to a violation of section 215, 471, 472, 473, 474, 476, 477,
478, 479, 480, 481, 485, 486, 487, 488, 501, 502,
510, 542, 545, 656, 657, 670, 842, 844, 1005, 1006,
1007, 1014, 1028, 1029, 1030, 1032, or 1344 of this
title or any offense constituting “specified unlawful activity” (as defined in section 1956(c)(7) of this
title), or a conspiracy to commit such offense.
(D) Any property, real or personal, which represents or is traceable to the gross receipts obtained,
directly or indirectly, from a violation of—
(i) section 666(a)(1) (relating to Federal program fraud);
(ii) section 1001 (relating to fraud and false
statements);
(iii) section 1031 (relating to major fraud
against the United States);
(iv) section 1032 (relating to concealment of
assets from conservator or receiver of insured
financial institution);
(v) section 1341 (relating to mail fraud); or
(vi) section 1343 (relating to wire fraud),

63a
if such violation relates to the sale of assets
acquired or held by the the1 Federal Deposit
Insurance Corporation, as conservator or receiver for a financial institution, or any other
conservator for a financial institution appointed by the Office of the Comptroller of the
Currency or the National Credit Union Administration, as conservator or liquidating
agent for a financial institution.
(E) With respect to an offense listed in subsection
(a)(1)(D) committed for the purpose of executing or
attempting to execute any scheme or artifice to defraud, or for obtaining money or property by
means of false or fraudulent statements, pretenses, representations or promises, the gross receipts of such an offense shall include all property,
real or personal, tangible or intangible, which
thereby is obtained, directly or indirectly.
(F) Any property, real or personal, which represents or is traceable to the gross proceeds obtained, directly or indirectly, from a violation of—
(i) section 511 (altering or removing motor vehicle identification numbers);
(ii) section 553 (importing or exporting stolen
motor vehicles);
(iii) section 2119 (armed robbery of automobiles);

1

So in Original.

64a
(iv) section 2312 (transporting stolen motor
vehicles in interstate commerce); or
(v) section 2313 (possessing or selling a stolen
motor vehicle that has moved in interstate
commerce).
(G) All assets, foreign or domestic—
(i) of any individual, entity, or organization
engaged in planning or perpetrating any any2
Federal crime of terrorism (as defined in section 2332b(g)(5)) against the United States,
citizens or residents of the United States, or
their property, and all assets, foreign or domestic, affording any person a source of influence over any such entity or organization;
(ii) acquired or maintained by any person
with the intent and for the purpose of supporting, planning, conducting, or concealing any
Federal crime of terrorism (as defined in section 2332b(g)(5)3 against the United States,
citizens or residents of the United States, or
their property;
(iii) derived from, involved in, or used or intended to be used to commit any Federal
crime of terrorism (as defined in section

So in Original. The second “any” probably should not appear.
So in Original. A second closing parenthesis probably should
appear.

2
3

65a
2332b(g)(5)) against the United States, citizens or residents of the United States, or their
property; or
(iv) of any individual, entity, or organization
engaged in planning or perpetrating any act
of international terrorism (as defined in section 2331) against any international organization (as defined in section 209 of the State Department Basic Authorities Act of 1956 (22
U.S.C. 4309(b)) or against any foreign Government.4 Where the property sought for forfeiture is located beyond the territorial boundaries of the United States, an act in furtherance of such planning or perpetration must
have occurred within the jurisdiction of the
United States.
(H) Any property, real or personal, involved in a
violation or attempted violation, or which constitutes or is derived from proceeds traceable to a violation, of section 2339C of this title.
(I) Any property, real or personal, that is involved
in a violation or attempted violation, or which constitutes or is derived from proceeds traceable to a
prohibition imposed pursuant to section 104(a) of
the North Korea Sanctions and Policy Enhancement Act of 2016.
(2) For purposes of paragraph (1), the term “proceeds”
is defined as follows:
4

So in Original. Probably should not be capitalized.

66a
(A) In cases involving illegal goods, illegal services, unlawful activities, and telemarketing and
health care fraud schemes, the term “proceeds”
means property of any kind obtained directly or
indirectly, as the result of the commission of the
offense giving rise to forfeiture, and any property
traceable thereto, and is not limited to the net
gain or profit realized from the offense.
(B) In cases involving lawful goods or lawful services that are sold or provided in an illegal manner, the term “proceeds” means the amount of
money acquired through the illegal transactions
resulting in the forfeiture, less the direct costs incurred in providing the goods or services. The
claimant shall have the burden of proof with respect to the issue of direct costs. The direct costs
shall not include any part of the overhead expenses of the entity providing the goods or services, or any part of the income taxes paid by the
entity.
(C) In cases involving fraud in the process of obtaining a loan or extension of credit, the court
shall allow the claimant a deduction from the forfeiture to the extent that the loan was repaid, or
the debt was satisfied, without any financial loss
to the victim.
***
(f) All right, title, and interest in property described
in subsection (a) of this section shall vest in the
United States upon commission of the act giving rise
to forfeiture under this section.
***

67a
APPENDIX I
21 U.S.C. § 853
§ 853. Criminal forfeitures
(a) Property subject to criminal forfeiture
Any person convicted of a violation of this subchapter
or subchapter II punishable by imprisonment for
more than one year shall forfeit to the United States,
irrespective of any provision of State law—
(1) any property constituting, or derived from,
any proceeds the person obtained, directly or indirectly, as the result of such violation;
(2) any of the person’s property used, or intended
to be used, in any manner or part, to commit, or
to facilitate the commission of, such violation; and
(3) in the case of a person convicted of engaging
in a continuing criminal enterprise in violation of
section 848 of this title, the person shall forfeit, in
addition to any property described in paragraph
(1) or (2), any of his interest in, claims against,
and property or contractual rights affording a
source of control over, the continuing criminal enterprise.
The court, in imposing sentence on such person, shall
order, in addition to any other sentence imposed pursuant to this subchapter or subchapter II, that the
person forfeit to the United States all property described in this subsection. In lieu of a fine otherwise

68a
authorized by this part, a defendant who derives profits or other proceeds from an offense may be fined not
more than twice the gross profits or other proceeds.
***
(c) Third party transfers
All right, title, and interest in property described in
subsection (a) vests in the United States upon the
commission of the act giving rise to forfeiture under
this section. Any such property that is subsequently
transferred to a person other than the defendant may
be the subject of a special verdict of forfeiture and
thereafter shall be ordered forfeited to the United
States, unless the transferee establishes in a hearing
pursuant to subsection (n) that he is a bona fide purchaser for value of such property who at the time of
purchase was reasonably without cause to believe
that the property was subject to forfeiture under this
section.
***
(e) Protective orders
(1) Upon application of the United States, the court
may enter a restraining order or injunction, require
the execution of a satisfactory performance bond, or
take any other action to preserve the availability of
property described in subsection (a) for forfeiture under this section—
(A) upon the filing of an indictment or information charging a violation of this subchapter or
subchapter II for which criminal forfeiture may

69a
be ordered under this section and alleging that
the property with respect to which the order is
sought would, in the event of conviction, be subject to forfeiture under this section; or
(B) prior to the filing of such an indictment or
information, if, after notice to persons appearing
to have an interest in the property and opportunity for a hearing, the court determines that—
(i) there is a substantial probability that the
United States will prevail on the issue of forfeiture and that failure to enter the order will result in the property being destroyed, removed
from the jurisdiction of the court, or otherwise
made unavailable for forfeiture; and
(ii) the need to preserve the availability of the
property through the entry of the requested order outweighs the hardship on any party
against whom the order is to be entered:
Provided, however, That an order entered pursuant to
subparagraph (B) shall be effective for not more than
ninety days, unless extended by the court for good
cause shown or unless an indictment or information
described in subparagraph (A) has been filed.
***

70a
(p) Forfeiture of substitute property
(1) In general
Paragraph (2) of this subsection shall apply, if any
property described in subsection (a), as a result of
any act or omission of the defendant—
(A) cannot be located upon the exercise of due
diligence;
(B) has been transferred or sold to, or deposited
with, a third party;
(C) has been placed beyond the jurisdiction of
the court;
(D) has been substantially diminished in value;
or
(E) has been commingled with other property
which cannot be divided without difficulty.
(2) Substitute property
In any case described in any of subparagraphs (A)
through (E) of paragraph (1), the court shall order
the forfeiture of any other property of the defendant, up to the value of any property described in
subparagraphs (A) through (E) of paragraph (1),
as applicable.

71a
(3) Return of property to jurisdiction
In the case of property described in paragraph
(1)(C), the court may, in addition to any other action authorized by this subsection, order the defendant to return the property to the jurisdiction
of the court so that the property may be seized and
forfeited.

72a
APPENDIX J
28 U.S.C. § 2461
§ 2461. Mode of Recovery
***
(c) If a person is charged in a criminal case with a
violation of an Act of Congress for which the civil or
criminal forfeiture of property is authorized, the Government may include notice of the forfeiture in the indictment or information pursuant to the Federal
Rules of Criminal Procedure. If the defendant is convicted of the offense giving rise to the forfeiture, the
court shall order the forfeiture of the property as part
of the sentence in the criminal case pursuant to the
Federal Rules of Criminal Procedure and section 3554
of title 18, United States Code. The procedures in section 413 of the Controlled Substances Act (21 U.S.C.
853) apply to all stages of a criminal forfeiture proceeding, except that subsection (d) of such section applies only in cases in which the defendant is convicted
of a violation of such Act.

